20
Appendix A - S JC Decision

COMMONWEALTH OF MASSACHUSETTS
SUPREME JUDICIAL COURT
FOE SUFFOLK COUNTY
NO. SJ-202O-O58Q

SUFFOLK, ss

Appeals Court
No. 201S-F-Q748
Suffolk Superior Court.
No, 1.S84CV031S2

JOACHIM CARLO SANTOS MARTXLLO and ANTHONY Z. BONO
v.
UNKNOWN DEFENDANTS TO BE NAMED LATER
JUDC24ENT

This matter Ca:ne before the Court, Lowy, J, , on a petition
for writ, of certiorari pursuant, to £. L, c. 249, S 5.
The requisite elements for availability of certiorari
are:H)a judicial or quasi-judicial proceeding, {2}from which
there is nc other reasonably adequate remedy,(34to correct a
substantial, error of law apparent on the record, and (4)that has
resulted in manifest injustice to the plaintiff or an adverse
impact on the real interests of the general public.

See State

Board of Retirement v. Woodward, 446 Mass. 638, 703-704 (2006).
The petitioners have not demonstrated'that their petition
satisfied the last three elements.

•

21

Upon consideration thereof, it is ORDERED that the petition
for writ of certiorari be, and the same hereby is, DENIED
without hearinq,

By the Court {Lawy, J.5
/s/ Maura 8, Doyle
Maura S, Doyle, Clerk

Entered: August 28, 2020

34
Appendix C - Appeals Court Memorandum and
Order on Motion

COMMONWEALTH OF MASSACHUSETTS
APPEALS COURT
19-P-74S
BONO & ANOTHER3vs.

UNKNOWN DEFENDANTS.
MEMORANDUM AND ORDER OK MOTION FOR LEAVE TO FILE AN AMENDED
BRIEF
The plaintiffs, Anthony 2. Bono and Joachim Carlos Santos
Martillo, appealed from a Superior Court order dismissing their
complaint.

In a memorandum and order pursuant to Rule 1:28, we

affirmed the judgment of the Superior Court on May 26, 2020.
Pursuant to Mass. R. App. P. 16 (n), the plaintiffs have
submitted a motion, supported .by a memorandum, seeking leave to
file so amended brief.

The plaintiffs wish to correct and.

clarify certain arguments and the issues presented.

Having

reviewed the plaintiffs* memorandum in support of their motion
to amend, we conclude that they have presented good cause to
amend their brief.

The plaintiffs' motion therefore is allowed

and the amended brief and appendix are accepted for filing.
. The plaintiffs alsso have filed a. motion for reconsideration.
or modification of decision based on their amended brief.

1 Joachim Carlos Santos Martillo.

See

FT-

35

Hass. H. App. F. 21 (a.).
appendix,

We have reviewed the amended brief end

she arguments raised are in all material respects the.

same as those raised in the original brief, and we conclude that
they are without merit for the same reasons set forth in. our
memorandum and order dated May 26, 2020.

The plaintiffs’ motion

to reconsider therefore is denied.
So ordered.
By the Court (Vuono, Lervire &
McDonough, JJ.2),

lyL—,
Assistant Clerk
Entered:

uune 19, 2020

z The panelists are listed in order of seniority.

43
Appendix F- Decision on Appeal

Summary decisions issued by the Appeals Court pursuant to Its rule 1:26, as
HOIICE:
amended by 73 ' Mass. App. Ct, 1001 (20O9>, axe primarily directed to the parties and,
therefore, may not fully address the facts of the case, or the panel’s decisional
Moreover, such decisions are not circulated to the entire court and,
rationale.
A summary
therefore, represent only the views of the panel that decided the case.
decision pursuant to rule 1:28 issued after February 25, 2003, may be cited for its
persuasive value tone,- because of the limitations noted above,, not as binding precedent,
5ee Chace v. Curran, 71 Mass. App. Ct. 253,. 260 n. 1 (2008) .

COMMONWEALTH OF MASSACHUSETTS
APPEALS COURT
19-P-748.
ANTHONY Z. BONO & another1
vs.
UNKNOWN DEFENDANTS.
MEMORANDUM AND ORDER PURSUANT TO RULE 1:28
The plaintiffs, Anthony 2. Bono and Joachim Carlos Santos
Martillo, appeal from the judgment dismissing their complaint.
According to the docket entries in the trial court, on October.
12,. 2018, the plaintiffs filed a complaint- in the Superior
Court.

We note that the plaintiffs have not provided us with a

copy of the complaint.

The docket further indicates that a few

days later, on October 19, 2018, a show-cause order as to why
the case should hot be dismissed issued.

The plaintiffs

responded to the show-cause order and, on November .19, 2018,
they filed a "bill in. equity."
provided to us either,

This document has not been

Another show-cause order issued and a

judge of the Superior Court conducted a hearing on December 17,
2018.

At the conclusion of that hearing, the judge expressed

1 Joachim Carlos Santos Martillo.

44

his intention to dismiss this case for a variety of reasons,
which he stated on. the record.

The hearing transcript has not

been provided to us;: however, the judge issued a written
decision, in which he briefly.memorialized some of those
reasons.
The judge reasoned that, by their "bill in equity," Bono
and Martillo were attempting to:
"appeal
. . a 2016 decision of the United States District
Court for the Eastern District of Virginia, rendered by a
jurist labeled by plaintiffs as the 'Federal District Court
. . In that 25-page decision [which
Judge from Hell.'
also does not seem to be in the present appendix] . . . ,
the federal district judge reviewed a decision by the
United States Patent and Trademark Office rejecting the
patent application at issue here. The plaintiff in the
federal case was Realvirt DLC, an entity not yet a party, to
[this] lawsuit, but which the individual plaintiffs seek to
add as a co-plaintiff by naming it as such in their Bill in
Equity. The federal district judge concluded that the
individual plaintiffs in this case had no legal interest in
the application for that patent, and therefore their
corporate entity Realvirt had failed to establish its
standing to challenge the action of the United States
Patent and Trademark Office. Much of the substance of the
Bill in Equity is a vehement disagreement with, that
conclusion of the federal district: court judge. However,
plaintiffs long ago appealed that decision to the United
States Court of Appeals for the Federal Circuit, which
issued a one-word affirmance in August: 2018, less than two
months before plaintiffs filed this lawsuit, apparently
seeking a second bite at that particular apple."
The judge further explained that the matter could be dismissed
on any number of grounds, including:

(i> Federal jurisdiction

over patent matters is exclusive; (ii) Massachusetts does not
recognize a cause of action to "quiet" or "try title" of a

2

45

patent application; (iii) it is "unlikely” that Massachusetts1
has personal jurisdiction: over the Director of the United States
Patent and Trademark Office; (iv) res judicata and/or collateral
estoppel arising from the Federal judgment mentioned in the
judge's decisional memorandum;

(v) failure.to present a "short

aiid plain statement of the claim"; and (vi) failure to state :a
claim.
To the extent we understand the plaintiffs' arguments, they
assert that they Stated a claim, for adverse possession'. Or
"reversion," of a.patent application. ' However, because the
plaintiffs have not provided us with an adequate record, it is
not possible for us to determine whether such a claim has been
stated or whether we have subject matter jurisdiction.2

"It is

the obligation of: the appellant []. to include in .the appendix,
those [materials] which are essential for review of the.: issues
raised on appeal."

Shawmut Community, Bank, Hat'l Ass'n v.

Zaqami, 30 Mass. App. Ct. 371, 372-373 (1991), S.C * r €11 Mass.

2 We note that a single justice of this, court issued an order on
May 21, 201.9, requiring the plaintiffs to file ”foj:n or before
6/5/19, ... a memorandum, not to exceed 7 doublet-spaced pages,,
showing^ cause as to why this court, has: jurisdiction over this
matter .... where the claims at issue apparently seek relief as
to the ownership of a patent which is subject to the exclusive
jurisdiction of the federal courts."

3

46

See Mass, R. A. P. 16 (a)

807 {1932) .

(4), as Rearing in 481

Mass. 1628 (2019);3 Mass. R. A. ■'£>.. 18, as appearing in ,481 Mass,
"1637 (2019) .:

Given the state of the record and: the briefing, we

do not attempt to determine whether the complaint was properly
dismissed.
(2007)

Cf. Choke! v. Genzyme Corp., 449 Mass. 272, 280

(where motion missing :f rom record, on appeal "we .do not

review the propriety of. its denial”) .
Judgment affirmed.
By the Court (Vuono, Lemire &
McDonough, . JJ.*}. ,
■J

Clerk

Entered:

May 26, :2O20i

3 We cite to the Massachusetts Rules of Appellate. Procedure in
effect as of the date the Appendix was filed. The. rules were
wholly revised, effective March 1, 2019. See Reporter's Notes
to Rule 1, Mass. Ann. laws Court Rules, Rules of Appellate.
.Procedure, at 446 (LexisNexis 2019).
* The panelists are'listed.in Order of seniority.
4

Additional material
from this filing is
available in the
Clerk's Office.

